CERTIFICATE OF WORD COUNT
NO. 20-1668
City of Tahlequah, Oklahoma, et al.,
Petitioners,
v.
Austin P. Bond, as Special Administrator of the Estate of Dominic F. Rollice, Deceased,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the NATIONAL POLICE
ASSOCIATION AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONERS contains 4449 words, including
the parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
June 30, 2021

SCP Tracking: Lafferrandre-1109 North Francis Avenue-Cover Cream

